Supreme Court, U.S
FILED

DEC 2 1 2020
No.

^0-^3/

OFFICE OF THE CLERK

Supreme Court of tfje ®mteb States!
Wynship W. Hillier
v.
Central Intelligence Agency and
United States Department of State

On Petition for Writ of Certiorari to the United
States Court of Appeals for the District of
Columbia Circuit

Petition for Certiorari
Wynship W. Hillier, pro se
P.O. Box 427214
San Francisco, California 94142-7214
(415) 505-3856
wynship@hotmail.com

ORIGINAL

RECEIVED
DEC 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Questions Presented for Review
1. Shall summary judgment be awarded in favor of an agency in a suit under the Privacy
Act to compel notice of the fact of the existence of records pertaining to a requester in a
Privacy Act system of records on the basis of the agency's declaration stating that notice of
records was withheld according to the agency's lower standard for granting access to identified
records?
2. Shall summary judgment be awarded in favor of a non-FBI agency against whom a
reasonable claim of misapplication of 5 U.S.C. § 552(c) has been asserted with respect to a
Privacy Act request for notice of the existence of records pertaining to a requester in a system
of records containing classified records regarding terrorism, when the agency has not
submitted a sealed affidavit either justifying its application of 5 U.S.C. § 552(c) or asserting that
no records were withheld pursuant to 5 U.S.C. § 552(c)?
3. May the Privacy Act systems of records supplied by a requester in a request for
notice of the fact of the existence of records pertaining to him in those systems be only partially
searched or even ignored entirely by the agency when responding to his request?

List of Proceedings
1. Wynship W. Hillier v. Central Intelligence Agency, United States Department of State,
and United States Department of Homeland Security, No. 16-cv-1836 (DLF), United States
District Court for the District of Columbia. Judgment entered Sept. 27, 2019.
2. Wynship W. Hillier v. Central Intelligence Agency, United States Department of State,
and United States Department of Homeland Security, No. 19-5339, United States Court of
Appeals for the District of Columbia Circuit. Judgment entered April 17, 2020.

ii

Table of Contents

Questions Presented for Review

i

List of Proceedings

ii

Table of Contents

iii

Table of Cited Authorities

v

Statement of Basis for Jurisdiction

1

Statutes and Regulations Involved in This Case

1

Statement of the Case

4

I. Facts of This Case

4

II. The Privacy Act

5

III. The Court of Appeals Issued a Ruling in Contradiction With Seila Law, LLC v.
Consumer Fin. Prot. Bureau

6

A. The Court of Appeals Extended Chambers Beyond Its Language and Facts

7

B. The Court of Appeals Misapplied Chambers in Derogation of the Privacy Act

9

C. Pet'r Has Standing to Seek a Writ of Certiorari on These Bases

10

IV. The Court of Appeals Issued a Ruling That Contradicts Robertson v. Methow Valley

11

Citizens Council
V. The Court of Appeals Issued a Ruling That Contradicts ACLU of Mich. v. FBI

13

VI. Conclusion

14

Amplification of the Reasons Relied on For Allowance of the Writ

iii

15

Appendix

(separate cover)

Order of Sept. 12, 2018, in case no. 16-cv-1836

Appx. 1

Memorandum Opinion of Sept. 12, 2018, in case no. 16-CV-1836

Appx. 6

Central Intelligence Agency Determination Letter of Sept. 14, 2014

Appx. 42

U.S. Department of State Determination Letter of Jan. 13, 2017

Appx. 43

Order on Rehearing of July 23, 2020, in case no. 19-5339

Appx. 44

Order of April 17, 2020, in case no. 19-5339

Appx. 45

Request to Central Intelligence Agency of Jan. 6, 2012 (mis-dated 2011)

Appx. 47

Request to U.S. Department of State of Jan. 19, 2012

Appx. 49

COVID-19 Order of the Court, Mar. 19, 2020

Appx. 51

iv

Table of Cited Authorities
Statutes
5 U.S.C. § 552(b)(1) (2006 and Suppl. V)

4

5, 13,14

5 U.S.C. § 552(c) (2006 and Suppl. V)

3, 14

5 U.S.C. § 552(c)(3) (2006 and Suppl. V)
5 U.S.C. § 552a(a)(5) (2006 and Suppl. V)

6

5 U.S.C. § 552a(d)(l) (2006 and Suppl. V)

2,9

5 U.S.C. § 552a(e)(4)(A)-(D) and (G)-(l) (2006 and Suppl. V)

1

5 U.S.C. § 552a(e)(4)(A)-(D), (I) (2006 and Suppl. V)

6

5 U.S.C. § 552a(e)(4)(G) and (f)(1) (2006 and Suppl. V)

5

5 U.S.C. § 552a(e)(4)(G), (f)(1), and note ("Congressional Findings and Statement of
Purpose" (b)(1)) (2006 and Suppl. V)

11

5 U.S.C. § 552a(e)(4)(H) (2006 and Suppl. V)

9

5 U.S.C. § 552a(e)(4)(H) and (f)(3) (2006 and Suppl. V)

6

5 U.S.C. § 552a(f) (2006 and Suppl. V)

6
7,9

5 U.S.C. § 552a(f)(l) (2006 and Suppl. V)

2

5 U.S.C. § 552a(f)(l) and (3) (2006 and Suppl. V)
5 U.S.C. § 552a(f)(3) (2006 and Suppl. V)

7,9

5 U.S.C. § 552a(j)(3) (2006 and Suppl. V)

3

5 U.S.C. § 552a(t)(l) (2006 and Suppl. V)

13

v

5 U.S.C. § 552a note (2006 and Suppl. V) ("Congressional Findings and Statement of

3,11

Purpose")
28 U.S.C. § 1254(1) (2018 and Suppl. I)

1

28 U.S.C. §§ 1331 and 1343 (2018 and Suppl. I)

5

50 U.S.C. § 1541 note ("Authorization for Use of Military Force") (2018 and Suppl. I)

4

50 U.S.C. § 1801(b)(2) (2018 and Suppl. I)

4

Cases—Supreme Court of the United States

9

Caminetti v. U.S., 242 U.S. 470, *485 (1917)
Christopher v. Harbury, 536 U.S. 403, *415 n. 12 (collecting cases) (2002) (Justice Souter)

15

Fed'l Power Comm'n v. Tuscarora Indian Nation, 362 U.S. 99, *110 (1960) (Justice

15

Whittaker)
Federal Trade Commission v. Floatill Products, Inc., 389 U.S. 179, *181 (1967) (Justice

15

Brennan)
Holder v. Humanitarian Law Project, 561 U.S. 1, *45 (2010) (Justice Breyer, diss.)

15

Knetsch v. United States, 364 U.S. 361, *362 (1960) (Justice Brennan)

15

Parsons v. Smith, 359 U.S. 215, *216 (1959) (Justice Whittaker)

15

Robertson v. Methow Valley Citizens Council, 490 U.S. 332, *359 (1989) (Justice Stevens)

11

Seila Law, LLC v. Consumer Fin. Prot. Bureau, 140 S. Ct. 2183, *33 (2020) (Chief Justice
Roberts)

6

United Steelworkers of America, AFL-CIO v. N.L.R.B., 376 U.S. 492, *496 (1964) (Justice

15

White)
//

vi

//
//
Cases—Lower Courts
ACLU of Mich. v. FBI, 734 F.3d 460, *464 (6th Cir. 2013) (District Judge Boggs)

13

Chambers v. Dept, of the Interior, 568 F.3d 998, *1003 (D.C. Cir. 2009) (Circuit Judge
6,7

Henderson)

4

Hillier v. CIA, et al., 16-CV-1836 (D.D.C. 2019)
Light v. DOJ, 968 F.Supp.2d 11, *30 (D.D.C. 2013) (District Judge Collyer)
McCready v. Nicholson, 465 F.3d 1,14 (D.C. Cir. 2006) (Circuit Judge Griffith)

13
7

McGehee v. CIA, 697 F.2d 1095,1105-1112 (D.C. Cir. 1983) (Circuit Judge Harry T.
Edwards), rev'don other grounds, 711 F.2d 1076 (D.C. Cir. 1983)

14

Agency Regulations
12

32 C.F.R. § 1901.02(d) (2011)

2

32 C.F.R. § 1901.62(c) and (d)(1) (2011)

5,11,12

32 C.F.R. § 1901.62(c) (2011)

11

32 C.F.R. § 1901.62(d)(1) (2011)

vii

Pet'r Wynship W. Hillier ("Petitioner") is unaware of any official or unofficial reports of the
opinions and/or orders entered in these cases by courts or administrative agencies.
Statement of Basis for Jurisdiction
Jurisdiction for review on a writ of certiorari is conferred by 28 U.S.C. § 1254(1) (2018
and Suppl. I). Judgment was entered by the United States Court of Appeal, District of Columbia
Circuit, on April 17, 2020. Appx. 45-46. Rehearing was denied on July 23, 2020. Appx. 44. The
Court's Order of Mar. 19, 2020, 589 U.S., List of Orders, extended the date for filing a petition
for certiorari to 150 days after the denial of a petition for rehearing. Appx. 51-52.
Statutes and Regulations Involved in This Case
The first and third questions involve 5 U.S.C. § 552a(e)(4)(A)-(D) and (G)-(l) (2006 and
Suppl. V) (this section is called "The Privacy Act of 1974," hereafter, "Privacy Act"):
(e) Agency Requirements.-Each agency that maintains a system of records
shall-

(4) subject to the provisions of paragraph (11) of this subsection [for
publication in the Fed. Reg. - WH], publish in the Federal Register upon
establishment or revision a notice of the existence and character of the system
of records, which notice shall include(A) the name and location of the system;
(B) the categories of individuals on whom records are maintained in the
system;
(C) the categories of records maintained in the system;
(D) each routine use of the records contained in the system, including the
categories of users and the purpose of such use;

(G) the agency procedures whereby an individual can be notified at his
1

request if the system of records contains a record pertaining to him;
(H) the agency procedures whereby an individual can be notified at his
request how he can gain access to any record pertaining to him contained in the
system of records, and how he can contest its content; and
(I) the categories of sources of records in the system;
5 U.S.C. § 552a(d)(l) (2006 and Suppl. V): "Access to RECORDS-Each agency that maintains a
system of records shall- H(l) upon request by any individual to gain access to his record or to
any information pertaining to him which is contained in the system, permit him ... to review
the record ..." 5 U.S.C. § 552a(f)(l) and (3) (2006 and Suppl. V):
(f) Agency RuLES.-ln order to carry out the provisions of this section, each
agency that maintains a system of records shall promulgate rules, in accordance
with the requirements (including general notice) of section 553 of this title,
which shall(1) establish procedures whereby an individual can be notified in
response to his request if any system of records named by the individual
contains a record pertaining to him;
(3) establish procedures for the disclosure to an individual upon his
request of his record or information pertaining to him ...

The Office of the Federal Register shall biennially compile and publish the
rules promulgated under this subsection and agency notices published under
subsection (e)(4) of this section in a form available to the public at low cost.
The first question further involves 32 C.F.R. § 1901.62(c) and (d)(1) (2011):
(c) Pursuant to authority granted in section (j) of the Privacy Act, the
Director of Central Intelligence has determined to exempt from notification
under sections (e)(4)(G) and (f)(1) those portions of each and all systems of
records which have been exempted from individual access under section (j) in
those cases where the Coordinator determines after advice by the responsible
components that confirmation of the existence of a record may jeopardize
intelligence sources and methods. In such cases the Agency must neither confirm
nor deny the existence of the record and will advise a requester that there is no
record which is available pursuant to the Privacy Act of 1974.
(d) Pursuant to authority granted in section (j) of the Privacy Act, the
Director of Central Intelligence has determined to exempt from access by
individuals under section (d) of the Act those portions and only those portions of
2

all systems of records maintained by CIA that:
(1) Consist of, pertain to, or would otherwise reveal intelligence sources
and methods...
5 U.S.C. § 552a(j)(l) (2006 and Suppl. V):
(j) General ExEMPTiONS.-The head of any agency may promulgate rules, in
accordance with the requirements (including general notice) of sections
553(b)(1), (2), and (3), (c) and (e) of this title, to exempt any system of records
within the agency from any part of this section except subsections (b), (c)(1) and
(2), (e)(4)(A) through (F), (e)(6), (7), (9), (10), and (11), and (i) if the system of
records is(1) maintained by the Central Intelligence Agency...

and 5 U.S.C. § 552a note (2006 and Suppl. V) ("Congressional Findings and Statement of
Purpose"):
"Section 2 of Pub. L. 93-579 provided that:

"(b) The purpose of this Act [enacting this section and provisions set out
as notes under this section] is to provide certain safeguards for an individual
against an invasion of personal privacy by requiring Federal agencies, except as
otherwise provided by law, to"(1) permit an individual to determine what records pertaining to him are
collected, maintained, used, or disseminated by such agencies ...
"(3) permit an individual to gain access to information pertaining to him
in Federal agency records, [and] to have a copy made of all or any portion
thereof...

The second question involves 5 U.S.C. § 552(c)(3) (2006 and Suppl. V) (this section is
called the "Freedom of Information Act" hereafter "FOIA"):
3

Whenever a request is made which involves access to records maintained
by the Federal Bureau of Investigation pertaining to foreign intelligence or
counterintelligence, or international terrorism, and the existence of the records
is classified information as provided in subsection (b)(1), the Bureau may, as long
as the existence of the records remains classified information, treat the records
as not subject to the requirements of this section.
5 U.S.C. § 552(b)(1) (2006 and Suppl. V) states, "This section does not apply to matters that are11 (1)(A) specifically authorized under criteria established by an Executive order to be kept
secret in the interest of national defense or foreign policy and (B) are in fact properly classified
pursuant to such Executive order..."
Statement of the Case
/. Facts in This Case
Pet'r has been subject to electronic surveillance since 2001 but does not meet, by any
stretch of the imagination, the standard for "agent of a foreign power" set forth in 50 U.S.C. §
1801(b)(2) (2018 and Suppl. I). In 2007, he began to be involuntarily treated with anti-psychotic
medication through a novel technique that did not allow him to determine who was
responsible for its administration, nor under what authority. In 2010, pursuant to the
aforementioned treatment, via means apparently authorized by 50 U.S.C. § 1541 note
("Authorization for Use of Military Force") (2018 and Suppl. I), psychosurgery or other
destructive neurosurgery was performed on him against his will and without his consent,
permanently disabling him and preventing him from being able to work or even enjoy his
remaining life. In early 2012, he sent requests for notice of the existence of records regarding
himself in specific Privacy Act systems of records to respondents and other agencies. Appx. 4750. In 2016, still lacking a determination of one of his requests, he filed suit in the United States
District Court for the District of Columbia, Hillier v. CIA, et al., 16-CV-1836, for a determination,
4

better searches, etc., also alleging improper application of 5 U.S.C. § 552(c) (2006 and Suppl. V).
The court had jurisdiction under both 28 U.S.C. §§ 1331 and 1343 (2018 and Suppl. I). On Sep.
12, 2018, the U.S. District Court denied summary judgment in favor of Pet'r and awarded
summary judgment in favor of respondents Central Intelligence Agency ("CIA") and United
States Department of State ("State") without requiring either of them to submit a sealed
affidavit either describing their application of 5 U.S.C. § 552(c) (2006 and Suppl. V) to the
requests or stating that it had not been applied. Appx. 1-5. The district court further did so in
spite of the fact that CIA did not state in its declaration that the higher standard in 32 C.F.R. §
1901.62(c) (2011) for requests for notice of the existence of records about the requester had
been applied to the processing of Pet'r’s request. Appx. 23 (falsely hypothesizing that
jeopardization of intelligence sources and methods alone would be sufficient to meet 32 C.F.R.
§ 1901.62(c) (2011) "even assuming" that this subsection applied (the district court is
apparently being disingenuous, as its applicability was never contested)).
Pet'r appealed.
II. The Privacy Act
The Privacy Act is similar to the FOIA, in that both allow individuals to request access to
specified government records. In the context of the FOIA, the individual chooses the agency
with whom to file the request, and specifies the documents sought. The agency then searches
for the documents. The Privacy Act also requires the individual to file their request with a
specific agency. Contrary to the FOIA, the Privacy Act also allows requests for notice of the fact
of the existence of records pertaining to the requester in specific Privacy Act "systems of
records." 5 U.S.C. § 552a(e)(4)(G) and (f)(1) (2006 and Suppl. V). A system of records is "a

5

group of any records under the control of any agency from which information is retrieved by
the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual..." 5 U.S.C. § 552a(a)(5) (2006 and Suppl. V). The Privacy
Act requires all federal agencies to publish copious information about each of their systems of
records in the Fed. Reg., 5 U.S.C. § 552a(e)(4)(A)-(D), (I) (2006 and Suppl. V). This information is
compiled biennially, 5 U.S.C. § 552a(f) (2006 and Suppl. V). This information allows requesters
to intelligently limit searches for records pertaining to them to specific systems of records.
Contrast, 5 U.S.C. § 552a(e)(4)(H) and (f)(3) (2006 and Suppl. V) (requests for access to specific
records under the Privacy Act). The FOIA contemplates only requests for access, which may be
for any kind of record in the possession of an executive agency, and requires that the agency
give notice of the existence of all responsive documents, except for narrow classes under
subdivision (c), the result of a 1986 amendment. The Privacy Act allows agencies to exempt
records from both the access and notice requirements separately. The Privacy Act also gives
individuals many other rights not present in the FOIA concerning accuracy of records, etc., that
are not at issue here.
III. The Court of Appeals Issued a Ruling in Contradiction With Seila Law. LLC v. Consumer Fin.
Prot. Bureau.
Implicit in the holding in Seila Law, LLC v. Consumer Fin. Prot. Bureau, 140 S. Ct. 2183,
*33 (2020) (Chief Justice Roberts) was the proposition that the plain language of a statute must
govern and cannot be interpreted away. The court of appeals contradicted this proposition by
issuing a ruling contradicting the plain language of the Privacy Act while relying on Chambers v.
Dept, of the Interior, 568 F.3d 998, *1003 (D.C. Cir. 2009) (Circuit Judge Henderson) to do it. In

6

doing so, they extended Chambers beyond both its language and its facts. The ruling should be
reversed. The plain language of the Privacy Act distinguishes between requests for access to a
specific record, which need not specify a Privacy Act system of records, 5 U.S.C. § 552a(f)(3)
(2006 and Suppl. V), and requests for notice of the fact of the existence of records pertaining to
the requester in named Privacy Act systems of records, 5 U.S.C. § 552a(f)(l) (2006 and Suppl.
V). Chambers expressly limited its holding to the former. Pet'r's request fell in the latter.
A. The Court of Appeals Applied Chambers Beyond Its Language and Facts.
The court of appeals cited Chambers as the sole support for the adequacy of
respondents' searches in their approval of a motion for summary affirmance. Appx. 46.
Chambers affirmed a standard of agency-determined likeliness in agency searches under the
Privacy Act related to access to specific records (hereafter "agency-determined likeliness"). "In
a suit seeking agency documents - whether under the Privacy Act or FOIA -'... the court may
rely on a reasonably detailed affidavit... averring that all files likely to contain responsive
materials ... were searched.'..." 568 F.3d at *1003 (citations, other internal quotation marks
omitted, emphasis added). That documents are sought means that the request is for access.
Chambers, relied upon by the court of appeals, concerned a request for access to
specific personnel records. As the request was for access to specific documents, it did not
specify which Privacy Act system(s) of records to search. Chambers quoted from McCready v.
Nicholson, 465 F.3d 1,14 (D.C. Cir. 2006) (Circuit Judge Griffith) (see retained inner quotation
marks, above). Both cases relied on reasoning that applied only to requests that sought access
to identifiable records and specified no Privacy Act system or systems of records for search. In
other words, they concerned requests for access identical to requests for access made pursuant

7

to the FOIA, naming the Privacy Act in order to prevent the assertion of the personal privacy
exemption from the FOIA. McCready held that the FOIA standard of agency-determined
likeliness was appropriate to scope a search to systems of records likely to contain a requested
record. Chambers repeated the agency-determined likeliness standard. The court of appeals
misapplied this standard to Pet'r's request, which was for notice of the fact of existence of
records pertaining to him within specifically-enumerated Privacy Act systems of records. The
court of appeals' ruling was unsupported by the authority cited, with pernicious effect.
State used Chambers to limit their search to two offices of the system of records Pet'r
had identified. CIA used it, in cojunction with their application of the wrong regulation, see, IV,
infra, to search two completely different systems of records than the ones that Pet'r had
requested that CIA search. CIA thus limited their search to "records that would reveal an open
of acknowledged relationship" between Pet'r and CIA. Neither agency would have been able so
to limit their searches without the misapplication of Chambers to Pet'r's request.
As a matter of policy, it is rather unhelpful when, in response to a Privacy Act request
for notice of the fact of the existence of records in specific Privacy Act systems of records, the
agency responds to the request with the equivalent of, "We did not search the systems you
requested, or searched only a small part of them. Instead, on the basis of what you told us, we
searched systems or parts thereof that we thought might contain a record pertaining to you,
and the systems or parts of systems we searched do not contain records pertaining to you."
//
//
//

8

B. The Court of Appeals Misapplied Chambers in Derogation of the Plain Language of the
Privacy Act.
The words of the Privacy Act also and loudly support Pet'r's right to specify the Privacy
Act systems of records to search in his request for notice of the fact of existence of records
pertaining to him: "[E]ach agency that maintains a system of records shall promulgate rules ...
which shall... establish procedures whereby an individual can be notified in response to his
request if any system of records named by the individual contains a record pertaining to him .
.5 U.S.C. § 552a(f)(l) (2006 and Suppl. V) (emphases added). In contrast, the words of 5
U.S.C. § 552a(f)(3) (2006 and Suppl. V), regarding requests for access, such as in McCready and
Chambers, make no mention whatsoever of a system of records ("[E]ach agency... shall...
establish procedures for the disclosure to an individual upon his request of his record or
information pertaining to him ..."). The words in 5 U.S.C. § 552a(e)(4)(H) (2006 and Suppl. V)
apply to requests for access and make reference to Privacy Act systems of records, but this is
explained by the fact that the entire paragraph (e)(4) applies to system of records notices that
are to be published for each agency system of records. 5 U.S.C. § 552a(d)(l) (2006 and Suppl.
V), giving a right of access, also makes reference to systems of records, but only with respect to
"any information pertaining to him which is contained in the system," i.e., notice, as distinct
from "to his record," i.e., access. These words leave no room for ambiguity: agencies must
search the systems of records identified by the individual in response to requests for notice.
Seila Law holds that the words of the statute control, as does Caminetti v. U.S., 242 U.S. 470,
*485 (1917) ("[T]he meaning of the statute must, in the first instance, be sought in the language
in which the act is framed, and, if that is plain,... the sole function of the courts is to enforce it

9

according to its terms....") and, consistently, many other cases in-between them.
C. Pet'r Has Standing to Seek a Writ of Certiorari on These Bases.
Pet'r's interest that respondents unequivocally search the requested systems is far from
frivolous. State applied agency-determined likeliness to limit its search within the requested
Privacy Act system of records, thereby to exclude its Directorate of Homeland Security, when
Pet'r had stated in his request that he was an U.S. citizen living in the U.S. being treated as a
terrorist! Appx. 49-50. Pet'r has reason to doubt the veracity of respondents' declarations that
State's search would have uncovered any records regarding Pet'r. State showed many signs of
bad faith in their processing of Pet'r's request, such as that Pet'r had to mail it six times to
different addresses within State before State would acknowledge it, State repeatedly confused
it with two other requests Pet'r then had pending with State, State repeatedly missed their
1/

expected completion dates and repeatedly ignored Pet'r's requests for new dates, resetting
them eventually as if they had newly received Pet'r's request each time, such that it took very
nearly five years for Pet'r to obtain a determination from State that no responsive records
existed, and Pet'r's suit against State was necessary to obtain it. Appx. 43. Though none of
these facts are disputed, neither court below found bad faith on the part of respondents, and
we do not present the question of bad faith here. Nevertheless, while citing these facts to
support standing on certiorari, we make our case regarding completeness of searches strictly
on the basis of noncompliance with the statute, and not on the doubtfulness of respondents'
declarations; we ask the Court to limit the application of Chambers to its facts and language.
With respect to CIA, Pet'r has standing to benefit from certiorari because a plausible
reading of CIA's declaration is that they only searched systems of records that contained copies

10

of records in all of their other systems when those records disclosed an openly acknowledged
relationship to CIA. In other words, it contained only and all records whose existences were not
classified. If plaintiff prevails on the correct reading of CIA's Privacy Act exempting regulation,
see IV, infra, CIA must declare facts showing that any withholding of notice of responsive
records met the standard in 32 C.F.R. § 1901.62(c) (2011). This standard clearly demands
disclosure of the existence of records whose existence is classified. This will avail Pet'r nothing
unless CIA conducts a new search, and searches the systems of records that Pet'r had originally
requested.
IV. The Court of Appeals Issued a Ruling That Contradicts Robertson v. Methow Valiev Citizens
Council.
In Robertson v. Methow Valley Citizens Council, 490 U.S. 332, *359 (1989) (Justice
Stevens) (citing cases) this Court held, congruently with Seila Law, that agency regulations may
not be interpreted in derogation of their plain language. The Court of Appeals contradicted
Robertson by affirming CIA’s application of the wrong law to Pet'r’s Privacy Act request. CIA
applied 32 C.F.R. § 1901.62(d)(1) (2011) to Pet'r's request. This is CIA's regulation for access to
records, to be contrasted with Pet'r's requests, which were for notice of the existence of
records, Appx. 47-50, the subject of 32 C.F.R. § 1901.62(c) (2011), which cites § 1901.62(d)(1)
(2011) and adds to it, forming an higher standard. This distinction reflects an identical one in
the Privacy Act. Contrast, 5 U.S.C. § 552a(e)(4)(G), (f)(1), and note ("Congressional Findings and
Statement of Purpose" (b)(1)) (requests for notice), with (e)(4)(H), (f)(3), and note
("Congressional Findings and Statement of Purpose" (b)(3)) (2006 and Suppl. V) (requests for
access). It is undisputed that Pet'r did not request access and did request notice of the fact of

11

existence of records regarding himself. CIA has a factual requirement that such lesser
disclosure must meet for the exemption of responsive records from it, i.e., in addition to
meeting the standard for exemption from access under the Privacy Act, "The [CIA Information
and Privacy] Coordinator [who serves as the Agency manager of the information review and
release program instituted under the Privacy Act - 32 C.F.R. § 1901.02(d) (2011)] determines
after advice by the responsible components, that confirmation of the existence of a record
may jeopardize intelligence sources and methods...." 32 C.F.R. § 1901.62(c) (2011). The
district court jumped to the conclusion that CIA had shown compliance with the standard of
"may jeopardize intelligence sources and methods" without consideration of whether they had
made the factual showing that the referenced official was involved and that they held the
required consultation. Appx. 23. The court of appeals followed in this error, citing FOIA case
law, as if Pet'r were not requesting records regarding himself, and continuing to reference the
wrong regulation. Appx. 46. It is undisputed that CIA's declaration did not state facts showing
that they had met the additional requirements of this higher standard. We ask for the
application of the correct regulation. Robertson held that it has never been the policy of this
Court, nor the courts below, to allow an agency to interpret its regulations in contradiction to
the plain meaning of those regulations.
With respect to standing on this point and with respect to III, supra, it is doubly likely
that the required review never occurred. On the hypothesis that responsive records exist in the
possession of CIA, withholding notice of them might not survive the additional review. The
resulting confirmation would allow Pet'r to file a meaningful classification challenge to and/or
mandatory declassification review of the records of which notice would have been given.

12

V. The Court of Appeals Issued a Ruling That Contradicts ACLU of Michigan v. FBI.
Both ACLU of Mich. v. FBI, 734 F.3d 460, *464 (6th Cir. 2013) (District Judge Boggs) and
Light v. DOJ, 968 F.Supp.2d 11, *30 (D.D.C. 2013) (District Judge Collyer) enunciate the rule
that, when a plaintiff makes a reasonable allegation of misapplication by a defendant agency of
5 U.S.C. § 552(c) to the plaintiffs request, the defendant must submit a sealed declaration
either justifying their application of it, or asserting that they did not apply it, to plaintiff's
request. Respondents submitted no sealed declarations, were awarded summary judgment by
the district court, and were sustained by the court of appeals.
Pet'r sought review of respondents' application of 5 U.S.C. § 552(c) (2006 and Suppl. V),
to his requests. 5 U.S.C. § 552(c) is the "exclusion" clause that allows agencies to deny notice of
the fact of existence of narrowly-defined classes of records, such as those dealing with
international terrorism, which are responsive to his requests. Such exclusion is an issue
because the Privacy Act requires disclosure of notice of the existence of records when such
information is available under the FOIA, even when an exemption from the Privacy Act
requirement for notice applies. 5 U.S.C. § 552a(t)(l) (2006 and Suppl. V). He raised the issue of
misapplication of 5 U.S.C. § 552(c) (2006 and Suppl. V) in his Second Amended and
Supplemental Complaint, operative in the case when summary judgment was sought and
granted. The only relevant difference between this case and ACLU of Mich, and Light is that the
records in question here would have fallen under 5 U.S.C. § 552(c)(3) (2006 and Suppl. V), which
is limited to classified records maintained by FBI regarding, inter alia, international terrorism.
The systems of records into which Pet'r inquired contain classified records regarding terrorism,
and it is plausible that copies of classified records regarding international terrorists maintained

13

by FBI are held by components of other members of the Intelligence Community that deal with
terrorism. McGehee v. CIA, 697 F.2d 1095,1105-1112 (D.C. Cir. 1983) (Circuit Judge Harry T.
Edwards), rev'don other grounds, 711 F.2d 1076 (D.C. Cir. 1983) (proposing scheme for clearing
disclosure of records with agencies other than the one to which the request was directed when
the recipient agency has possession of copies of the records). The government has admitted,
through its silence, that § 552(c)(3) (2006 and Suppl. V) is relevant to Pet'r's requests to CIA and
State, so applicability is not an issue. The government, the district court, and the court of
appeals all passed over the issue of the lack sealed affidavits in complete silence, allowing the
government's unsealed declarations not addressing the possible misapplication of § 552(c)
(2006 and Suppl. V) to stand without more, in contradiction with both ACLU of Mich, and Light.
By way of establishing standing on this point, with respect to CIA, if Pet'r prevails on
both points III and IV, supra, and notice of responsive records is nevertheless withheld, it must
be pursuant to § 552(c)(3). (If Pet'r prevails on point IV only, the victory may be hollow.) With
respect to State, prevailing on point III alone will be sufficient to reach the same issue. In these
cases, on the hypothesis that withheld records exist, without sealed declarations from CIA and
State, Pet'r will not receive judicial review of a withholding of notice that might not survive it.
VI. Conclusion
An appeal is a request that the law be applied. Indeed, law is in need of application
here; the War on Terror, underreported by the media, has amounted to a license for the
Executive to commit mayhem upon the populace. We respectfully request that the law be
applied here. We also respectfully remind the Court that the right to evidence implicit in 5
U.S.C. §§ 552 and the notice and access provisions of 552a have Constitutional bases.

14

Christopher v. Harbury, 536 U.S. 403, *415 n. 12 (collecting cases) (2002) (Justice Souter) (right
of access to courts found in privileges and immunities clause of U.S. Const. Art. VI, § 2, petition
clause of U.S. Const. Amend. I, due process clauses of U.S. Const. Amend's V andXIV, and equal
protection clause of U.S. Const. Amend. XIV). Furthermore, the War on Terror is no occasion
for suspension of Constitutional rights. Holder v. Humanitarian Law Project, 561 U.S. 1, *45
(2010) (Justice Breyer, diss.) (collecting cases). The Writ should issue.
Amplification of the Reasons Relied on for Allowance of the Writ
The Writ should be allowed because the United States Court of Appeals for the District
of Columbia Circuit has issued an opinion at variance with Court of Appeals precedent, Fed'l
Power Comm'n v. Tuscarora Indian Nation, 362 U.S. 99, *110 (1960) (Justice Whittaker),
Knetsch v. United States, 364 U.S. 361, *362 (1960) (Justice Brennan), Federal Trade
Commission v. Floatill Products, Inc., 389 U.S. 179, *181 (1967) (Justice Brennan), and because
the court of appeals has issued an opinion at variance with the decisional law of this Court,
United Steelworkers of America, AFL-CIO v. N.L.R.B., 376 U.S. 492, *496 (1964) (Justice White);
Parsons v. Smith, 359 U.S. 215, *216 (1959) (Justice Whittaker).
Dated: December 21, 2020
Respectfully submitted,

'ynship Hillier, in propria persona
P.O. Box 427214
San Francisco, California 94142-7214
(415) 505-3856
wynship@hotmail.com
15

